<html>
<title> - MARKUP OF THE SEMIANNUAL REPORT ON THE ACTIVITY OF THE COMMITTEE ON SMALL BUSINESS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
  MARKUP OF THE SEMIANNUAL REPORT ON THE ACTIVITY OF THE COMMITTEE ON 
                             SMALL BUSINESS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             JUNE 23, 2011

                               __________

                               [GRAPHIC] [TIFF OMITTED] TONGRESS.#13
                               

            Small Business Committee Document Number 112-025
              Available via the GPO Website: www.fdsys.gov



                  U.S. GOVERNMENT PRINTING OFFICE
71-959                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0265726d42617771766a676e722c616d6f2c">[email&#160;protected]</a>  


                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                       ROSCOE BARTLETT, Maryland
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                      CHUCK FLEISCHMANN, Tennessee
                         JEFF LANDRY, Louisiana
                   JAIME HERRERA BEUTLER, Washington
                          ALLEN WEST, Florida
                     RENEE ELLMERS, North Carolina
                          JOE WALSH, Illinois
                       LOU BARLETTA, Pennsylvania
                        RICHARD HANNA, New York
               NYDIA VELAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        MARK CRITZ, Pennsylvania
                      JASON ALTMIRE, Pennsylvania
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                     DAVID CICILLINE, Rhode Island
                       CEDRIC RICHMOND, Louisiana
                         GARY PETERS, Michigan
                          BILL OWENS, New York
                      BILL KEATING, Massachusetts

                      Lori Salley, Staff Director
                   Paul Sass, Deputy Staff Director 
                     Barry Pineles, General Counsel
                  Michael Day, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Graves, Hon. Sam.................................................     1
Velazquez, Hon. Nydia............................................     1

                               WITNESSES

    None.

                                APPENDIX

Prepared Statements:
    None.
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Materials for the Record:
    Semiannual Report............................................     4


  MARKUP OF THE SEMIANNUAL REPORT ON THE ACTIVITY OF THE COMMITTEE ON 
                             SMALL BUSINESS

                              ----------                              


                        THURSDAY, JUNE 23, 2011

                          House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2360, Rayburn House Office Building. Hon. Sam Graves 
[chairman of the Committee] presiding.
    Present: Representatives Graves, West, and Velazquez.
    Chairman Graves. Good afternoon. We will call the meeting 
to order for the Semiannual Report on the Activity of the Small 
Business Committee. Pursuant to House Rules, each standing 
committee must submit a Semiannual Report on the activities of 
that committee, including separate sections summarizing its 
legislative and oversight activities.
    Before us today is our Semiannual Report, and this report 
includes a copy of the Committee's rules and oversight plan 
which passed by voice vote on January 26, 2011. It includes a 
list of the Committee's membership and how the Committee is 
organized in a summary of its legislative and oversight 
activities.
    As of June 14th, the Small Business Committee has conducted 
10 full Committee hearings, seven Subcommittee meetings on 
issues such as repealing the troublesome 1099 reporting 
requirement in the Health Care bill, identifying federal 
regulatory outreach, the effect of pending free trade 
agreements on small exporters and two markups. We have had 
hearings on the review of federal contracting laws, identifying 
duplicative programs within the Small Business Administration, 
studying the effects of high energy costs on small businesses, 
and examining how a lack of capital is preventing small firms 
from growing and creating jobs.
    As you can see, the Committee has been very productive, and 
I look forward to another active six months before our next 
report. I now recognize the ranking member for her opening 
remarks.
    Ms. Velazquez. Thank you, Chairman, for yielding.
    Today's meeting will consider a report summarizing the 
activities of the Small Business Committee for the first six 
months of the 112th Congress. It outlines hearings, 
legislation, oversight efforts, and steps taken to provide 
regulatory relief to small firms. This Committee plays a key 
role not only in passing measures to boost entrepreneurship but 
also by heightening the profile of critical small business 
issues. The legislative and hearing records play a key role in 
shaping policies affecting access to capital, tax relief, and 
economic development of small firms.
    This is the first time that the Committee will issue a 
Semiannual Report. It represents a change from previous 
Congresses when committees were only required to file annually. 
While I support additional transparency, today's markup strikes 
me as largely symbolic. However, these reports do encourage 
greater congressional oversight. I support it.
    I recognize that the Chairman did not establish this new 
reporting requirement and he believes, as I do, that small 
businesses need action. The members of this Committee are 
acutely aware of the challenges small businesses face today. 
They have heard from witnesses throughout the year that getting 
the economy on solid footing must be Congress's top priority. 
It is my hope that the House can focus on a jobs package that 
helps small businesses grow. A common refrain is that small 
businesses are an afterthought when it comes to legislative 
priorities.
    I know the Chairman shares my commitment to helping small 
businesses create jobs and restore our nation's economy. 
Today's markup will fulfill our obligation under House rules. 
Over the next 18 months, I look forward to working with the 
members of this Committee to fulfill our obligation to small 
businesses by tackling the problems they face.
    And with that I yield back.
    Chairman Graves. Thank you very much. Thank you very much, 
Ranking Member.
    Does any other member wish to be heard or have a statement 
on the Semiannual Report? Seeing none, the Committee now moves 
to the consideration of the Semiannual Report. Will the clerk 
please read the document?
    The Clerk. Semiannual Report on the Activity of the 
Committee on Small Business, First Session of the----
    Chairman Graves. I would ask unanimous consent that the 
activity report be considered as read and open for amendment in 
its entirety except for those portions of this document which 
have already been approved and voted on by the Committee.
    Seeing no objections, does any member seek recognition for 
the purpose of offering an amendment? All right.
    Seeing none, the question is on adopting the Semiannual 
Report. All those in favor say aye.
    [Chorus of ayes.]
    Chairman Graves. All those opposed, no.
    It is the opinion of the chair that the ayes have it. The 
Semiannual Report is adopted.
    I would ask unanimous consent that the staff of the 
Committee be authorized to correct section numbers, 
punctuation, cross references, and any other technical or 
conforming corrections necessary to articulate and reflect the 
action of the Committee in the report.
    And seeing no objections, the markup is adjourned. And with 
that, Ranking Member, I have the Northland Chamber of Commerce 
here. And they are visiting today and we have actually, as you 
can see, we do not get to control our schedule very much so I 
have to move here and there with the votes. So I apologize for 
being late and I am going to speak to them.
    Ms. Velazquez. Welcome to Washington, D.C. It is really 
great to have real people here.
    Chairman Graves. Thank you very much. The hearing is 
adjourned.
    [Whereupon, at 2:15 p.m., the Committee markup was 
adjourned.]

                      CERTIFICATE OF NOTARY PUBLIC

                          DISTRICT OF COLUMBIA

    I, Stephen K. Garland, notary public in and for the 
District of Columbia, do hereby certify that the forgoing 
PROCEEDING was duly recorded and thereafter reduced to print 
under my direction; that the witnesses were sworn to tell the 
truth under penalty of perjury; that said transcript is a true 
record of the testimony given by witnesses; that I am neither 
counsel for, related to, nor employed by any of the parties to 
the action in which this proceeding was called; and, 
furthermore, that I am not a relative or employee of any 
attorney or counsel employed by the parties hereto, nor 
financially or otherwise interested in the outcome of this 
action.
        Notary Public, in and for the District of Columbia,
                               My Commission Expires: May 31, 2014.

[GRAPHIC] [TIFF OMITTED] T6480A.001

[GRAPHIC] [TIFF OMITTED] T6480A.002

[GRAPHIC] [TIFF OMITTED] T6480A.003

[GRAPHIC] [TIFF OMITTED] T6480A.004

[GRAPHIC] [TIFF OMITTED] T6480A.005

[GRAPHIC] [TIFF OMITTED] T6480A.006

[GRAPHIC] [TIFF OMITTED] T6480A.007

[GRAPHIC] [TIFF OMITTED] T6480A.008

[GRAPHIC] [TIFF OMITTED] T6480A.009

[GRAPHIC] [TIFF OMITTED] T6480A.010

[GRAPHIC] [TIFF OMITTED] T6480A.011

[GRAPHIC] [TIFF OMITTED] T6480A.012

[GRAPHIC] [TIFF OMITTED] T6480A.013

[GRAPHIC] [TIFF OMITTED] T6480A.014

[GRAPHIC] [TIFF OMITTED] T6480A.015

[GRAPHIC] [TIFF OMITTED] T6480A.016

[GRAPHIC] [TIFF OMITTED] T6480A.017

[GRAPHIC] [TIFF OMITTED] T6480A.018

[GRAPHIC] [TIFF OMITTED] T6480A.019

[GRAPHIC] [TIFF OMITTED] T6480A.020

[GRAPHIC] [TIFF OMITTED] T6480A.021

[GRAPHIC] [TIFF OMITTED] T6480A.022

[GRAPHIC] [TIFF OMITTED] T6480A.023

[GRAPHIC] [TIFF OMITTED] T6480A.024

[GRAPHIC] [TIFF OMITTED] T6480A.025

[GRAPHIC] [TIFF OMITTED] T6480A.026

[GRAPHIC] [TIFF OMITTED] T6480A.027

[GRAPHIC] [TIFF OMITTED] T6480A.028

[GRAPHIC] [TIFF OMITTED] T6480A.029

[GRAPHIC] [TIFF OMITTED] T6480A.030

[GRAPHIC] [TIFF OMITTED] T6480A.031

[GRAPHIC] [TIFF OMITTED] T6480A.032

[GRAPHIC] [TIFF OMITTED] T6480A.033

[GRAPHIC] [TIFF OMITTED] T6480A.034

[GRAPHIC] [TIFF OMITTED] T6480A.035

[GRAPHIC] [TIFF OMITTED] T6480A.036

[GRAPHIC] [TIFF OMITTED] T6480A.037

[GRAPHIC] [TIFF OMITTED] T6480A.038

[GRAPHIC] [TIFF OMITTED] T6480A.039

[GRAPHIC] [TIFF OMITTED] T6480A.040

[GRAPHIC] [TIFF OMITTED] T6480A.041

[GRAPHIC] [TIFF OMITTED] T6480A.042

[GRAPHIC] [TIFF OMITTED] T6480A.043

[GRAPHIC] [TIFF OMITTED] T6480A.044

[GRAPHIC] [TIFF OMITTED] T6480A.045

[GRAPHIC] [TIFF OMITTED] T6480A.046

[GRAPHIC] [TIFF OMITTED] T6480A.047

[GRAPHIC] [TIFF OMITTED] T6480A.048

[GRAPHIC] [TIFF OMITTED] T6480A.049

[GRAPHIC] [TIFF OMITTED] T6480A.050

[GRAPHIC] [TIFF OMITTED] T6480A.051

[GRAPHIC] [TIFF OMITTED] T6480A.052

[GRAPHIC] [TIFF OMITTED] T6480A.053

[GRAPHIC] [TIFF OMITTED] T6480A.054

[GRAPHIC] [TIFF OMITTED] T6480A.055


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
